                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

  Case Number: 109070033                                                                         Page 1 of 1



           While conducting an investigative review of the travel card usage of an NSF Intergovernmental
           Personnel Act detailed employee, l we received allegations concerning the failure of the same
           employee to report outside business interests on annual confidential financial disclosure reports.

          With regard to the financial disclosure reports, we determined that the employee's initial and
          first annual reports omitted multiple business interests in existence at the time of those reports,
          but reported them on the second annual report. We interviewed the employee, who related that :
          the written guidance for preparing the initial report had been confusing, as had subsequent
          annual online training at NSF. The individual eventually received in-person training that
          resolved the confusion and indicated clearly that her outside business interests were reportable, 'I
          after which the employee properly reported them. Our investigation uncovered no other                II

          evidence contradicting the employee's account or suggesting intentional omission of the busines;s
          interests.                                                                                          I!


          With regard to the travel card usage, after further analysis of usage history incoordination with II
          NSF finance staff, we determined that no misuse had occurred.                                     ;

                         .
                                    closed.
          Accordingly, this case is -  -
                                                                                                               ,
                                                                                                                I

                                                                                                               "i




NSF OIG Fonn 2 (llI02)
